               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




                 Self-Service Kiosks

                       Audit Report




                                              January 22, 2014

Report Number DR-AR-14-002
                                                                       January 22, 2014

                                                                   Self-Service Kiosks

                                                        Report Number DR-AR-14-002




BACKGROUND:                                  and customer assistance on the use of
Self-service kiosks (SSKs) are in about      SSKs.
2,300 post offices nationwide. The
majority of the kiosks are accessible        The Postal Service also incurred
24 hours a day, 7 days a week. SSKs          unnecessary SSK supply costs in
enable customers to buy stamps and           FY 2012. A software issue prevented
postal products and to process about         kiosk sensors from correctly identifying
80 percent of those transactions             when all label paper used to print on-
normally handled by retail window            demand stamps had been used.
clerks.                                      Management began corrective action in
                                             February 2013 to address the sensor
The U.S. Postal Service evaluates the        issue; therefore, we are not making a
effectiveness of an SSK by measuring         recommendation on this issue.
the customer adoption percentage,
which is the percentage of applicable        In related matters, we provided
transactions performed at an SSK             management with kiosk-related industry
instead of by a retail clerk.                strategies and implementation practices
                                             for its consideration.
Our objective was to assess the SSK
initiative in customer service operations.   WHAT THE OIG RECOMMENDED:
                                             We recommended the vice president,
WHAT THE OIG FOUND:                          Delivery and Post Office Operations,
Customers were not using SSKs as             and the vice president, Channel Access,
anticipated. As of June 30, 2013, the        establish a national initiative to train
SSK performance rate was 26.11               additional lobby assistants, and assess
percent, 8.9 percentage points below         SSK signage and placement. We also
the fiscal year (FY) 2013 nationwide         recommended deploying lobby
customer adoption percentage target of       assistants to promote and educate
35 percent. This occurred due to several     customers on SSK usage and eliminate
factors, including inconsistent signage,     249,877 workhours to achieve cost
positioning of some SSKs in partially        savings of about $24 million over
obscured locations, and lobby assistants     2 years. Finally, we recommended
who were not always trained and used         evaluating industry best practices using
effectively to promote SSK usage. The        SSKs and identifying any barriers to
Postal Service could eliminate over          implementation.
249,877 customer service retail window
workhours and save about $12 million         Link to review the entire report.
annually if it improved SSK promotion
January 22, 2014

MEMORANDUM FOR:             EDWARD F. PHELAN, JR.
                            VICE PRESIDENT, DELIVERY AND POST OFFICE
                            OPERATIONS

                            KELLY SIGMON
                            VICE PRESIDENT, CHANNEL ACCESS


                                 E-Signed by Robert Batta
                               VERIFY authenticity with e-Sign




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Audit Report – Self-Service Kiosks
                            (Report Number DR-AR-14-002)

This report presents the results of our self-initiated audit of Self-Service Kiosks
(Project Number 13XG015DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, director, Delivery
and Post Office Operations, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Self-Service Kiosks                                                                                                DR-AR-14-002




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Self-Service Kiosks ......................................................................................................... 2

Self-Service Kiosk Labels................................................................................................ 4

Other Matters — Benchmarking Industry Self-Service Kiosk Implementation
  Strategies .................................................................................................................... 5

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 7

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Monetary Impacts ..................................................................................... 12

Appendix C: Self-Service Kiosk Customer Adoption Percentage Rates........................ 13

Appendix D: Sites Visited and Lobby Assistant Information .......................................... 14

Appendix E: Management's Comments ........................................................................ 15
Self-Service Kiosks                                                                                  DR-AR-14-002




Introduction

This report presents the results of our self-initiated audit of Self-Service Kiosks (SSKs)
(Project Number 13XG015DR000). Our objective was to assess the SSK initiative in
customer service operations. See Appendix A for additional information about this audit.

In fiscal year (FY) 2003, the U.S. Postal Service received approval to develop 2,500
Automated Postal Centers (APCs), now called SSKs. The Postal Service completed
distribution of the 2,500 SSKs to about 2,300 post offices in FY 2004. In 2013, the
Postal Service deployed an additional 264 SSKs to 132 of the original SSK sites. 1 The
majority of the SSKs are accessible 24 hours a day; 7 days a week, enabling customers
to buy stamps and postal products and to conduct about 80 percent of those
transactions normally handled by a retail window clerk (see Figure 1 for example of an
SSK). The Postal Service established a customer adoption percentage (CAP) to
measure the percentage of walk-in capable transactions performed by SSKs versus
those performed by a retail window clerk. This measurement enables the Postal Service
to evaluate the effectiveness of SSKs.

                      Figure 1. SSK at a Customer Service Retail Location




     Source: U.S. Postal Service Office of Inspector General (OIG) picture taken January 30, 2013.




1
  The Postal Service refers to the 132 FY 2013 SSK deployment sites as the SSK Expansion Phase 1 sites. This
report does not include a review of the 132 sites that received SSKs in 2013.
                                                            1
Self-Service Kiosks                                                                            DR-AR-14-002



Conclusion

Customers were not using the SSKs as anticipated. The SSKs performed below the
35 percent CAP target for walk-in capable transactions in FY 2013. 2 As of June 30,
2013, the SSK performance rate was 26.11 percent, 8.9 percentage points below the
FY 2013 nationwide CAP. This condition occurred due to several factors, including
inconsistent signage around the SSKs, positioning of some SSKs in partially obscured
locations, and lobby assistants (LAs) who were not always trained and used effectively
to promote SSK use. 3 Increased SSK promotion and use of trained LAs would increase
SSK use and eliminate 249,877 retail window workhours, saving about $24 million over
2 years. See Appendix B for monetary impacts.

The Postal Service also incurred unnecessary SSK supply costs in FY 2012. This
occurred due to a software issue that prevented kiosk sensors from determining when
all label paper had been used. Some label paper was repurposed or destroyed, which
costs about $341,000 annually. The Postal Service began corrective action to address
the sensor issue in February 2013. We are not making a recommendation on this issue.
In related matters, we provided management with kiosk-related industry strategies and
implementation practices.

Self-Service Kiosks

SSKs performed below the 35 percent CAP target in FY 2013. As of FY 2013,
Quarter (Q) 3, SSK performance was 26.11 percent, 8.9 percentage points below the
FY 2013 nationwide CAP target. Also, even though the Postal Service did not establish
a CAP target for FYs 2011 and 2012, using Postal Service data, we determined the
CAP percentages declined from 29.06 percent in FY 2011, Q3 to 26.80 percent in
FY 2012, Q3 (see Figure 2).




2
  In FY 2012, the Postal Service used revenue as the SSK performance measure and did not have an SSK CAP
target. In FY 2013, the SSK performance measure was changed and a 35 percent SSK CAP target was established.
3
  See Appendix C for CAP percentages for sites visited by the audit team.

                                                      2
Self-Service Kiosks                                                                                     DR-AR-14-002



                                                         Figure 2. SSK CAP Trend

                                   39.0%
                                                                                                          FY 2011
                                   37.0%                                        37.38%


                                   35.0%
                                                                                                          FY 2012
    Customer Adoption Percentage




                                   33.0%                         32.94%

                                   31.0%
                                             29.61%
                                                                          29.06%                          FY 2013
                                   29.0%   29.45%         28.24%

                                           28.03%                               26.80%
                                   27.0%                   27.98%
                                                                                                          FY 2013
                                   25.0%        25.92%       25.78%         26.11%             25.09%     SSK
                                                                                                          Expansion
                                   23.0%                                                 24.44%           Phase 1
                                               Q1           Q2             Q3             Q4              Sites

Source: Postal Service SSK reports from Enterprise Data Warehouse (EDW)/Retail Data Mart (RDM).

The Postal Service did not meet its CAP target for several reasons. Signage around the
SSKs was not consistent, some SSKs were partially obscured from view in retail
facilities, and LAs were not always trained and used effectively to promote SSK usage.
We visited three sites with SSKs that were deployed in FY 2013. All of these sites had
significant increases in their CAPs compared with the same period in the previous year.
Each one had authorized full-time and trained LAs 4 to educate and assist customers on
the use of SSKs (see Appendix C, Tables 1 and 2).

The CAPs for these three sites increased from 28.03 percent 5 to 37.38 percent, a
9.35 percentage point increase. One of the major factors contributing to the increase
was the consistent use of full-time, trained LAs. However, managers at some sites we
visited said they only use LAs to direct customers to SSKs when customer wait-time-in-
line (WTIL)6 appears to be excessive, instead of promoting customer use of SSKs as a
general practice (see Appendix D).


4
  Lobby assistants greet customers and ensure they are prepared for their transaction before approaching the retail
window. They also direct customers to SSKs for transactions that do not require a retail clerk.
5
  FY 2012, Q3 compared with FY 2013, Q3.
6
  The WTIL metric is measured from the time the customer enters the line until he or she is called to the counter.

                                                                      3
Self-Service Kiosks                                                                                     DR-AR-14-002



A business case for FY 2013 SSK deployment sites provided funding to obtain and train
LAs to better assist retail customers. This program justified the use of full-time LAs at
132 sites and resulted in reduced retail window workhours. 7 Increased SSK promotion
and use of trained LAs would help overcome inconsistent signage and obscure SSK
location issues, increase SSK use, and eliminate 249,877 retail window workhours,
saving about $24 million over 2 years.

Self-Service Kiosk Labels 8

The Postal Service incurred unnecessary SSK supply costs in FY 2012 due to label
sensor issues. The process for replacing labels is:

   The sensor on the SSK allows about one-third of the blank labels to remain in the
    label box.

   Once the label box is two-thirds empty, the supervisor receives an alert indicating
    the box is empty (see Figure 3).

   The supervisor removes the box, which contains unused labels, discards it, and
    replaces it with a full box of labels for the printer to function.

A software issue prevented kiosk sensors from correctly determining when all label
paper in the SSK had been used. As a result, labels were wasted and the Postal
Service incurred unnecessary supply costs of $341,121 annually. Figure 3 shows a box
of labels in an SSK. Management said it began corrective action in February 2013 to
address the sensor issue. Management provided documentation to show it is working to
fix the SSK sensors. 9 We are not making a recommendation related to this issue.




7
  The Decision Analysis Report (DAR) business case for the 2013 SSK deployment recommends approval of
                                                             . Funding covers the purchase of hardware, integration with
existing SSK software, and deployment; and included                 for the initial training of eight Postal Service
employees per site (Level 6 employee, supervisor, and LAs).
8
  While the SSK uses several label types, we are only examining the fan-fold labels used for printing postage stamps.
See the red circle in Figure 3 for a view of fan-fold labels.
9
  We plan to follow up on the SSK sensors in a future SSK audit.

                                                           4
Self-Service Kiosks                                                                               DR-AR-14-002



                               Figure 3. SSK Label Box Placement




 Source: Postal Service and International Business Machine Self-Service Kiosk Machine Service Manual.


Other Matters — Benchmarking Industry Self-Service Kiosk Implementation
Strategies

The OIG reviewed industry strategies and practices for implementing SSK machines
from industry retailers, airlines, and grocery store chains. 10 The following is a summary
of key strategies and comments from other entities we interviewed about their use of,
and obstacles related to, SSKs:

    Implementation of kiosks cannot be the responsibility of one department and must
     include all departments that are going to be involved with the technology. A cross-
     functional implementation team is needed for the company's SSK program to
     succeed.

    Customer service representatives are in the checkout area where kiosks are located.

    It may take a while, but SSKs can achieve high customer acceptance rates.

    Companies should institute processes to acquire customer feedback about their
     kiosks.




10
  At the January 24, 2013 SSK survey entrance conference, the vice president, Channel Access, requested we
benchmark with private industries on SSK initiatives.

                                                       5
Self-Service Kiosks                                                           DR-AR-14-002




Recommendations

We recommend the vice president, Delivery and Post Office Operations, in coordination
with the vice president, Channel Access:

1. Train and deploy lobby assistants at self-service kiosk sites, as necessary, to
   promote usage.

2. Assess signage and self-service kiosk placement to increase the customer adoption
   percentage.

3. Eliminate 249,877 retail window workhours as the customer adoption percentage
   increases to save $24,860,335.

4. Evaluate industry best practices using self-service kiosks and identify any barriers to
   implementation.

Management’s Comments

Management disagreed with our findings, recommendations, and monetary impacts.

Management stated it agreed with the OIG using the 35 percent CAP because it more
accurately represents the national target and that other factors, such as positioning and
signage impact adoption. Management also stated it disagreed with the annual SSK
supply cost loss of $341,000 from destroyed unused labels in FY 2012 because only 15
sites were visited and the report did not indicate whether problems were at each site.
Management stated all sensor issues were corrected mitigating the loss.

For recommendation 1, management stated it is already using this process, as needed,
and lobby assistant training was completed at 3,092 locations on or before November
30, 2013.

Management also disagreed with recommendation 2 to assess signage and SSK
placement to increase the CAP. It stated it is working with the area marketing
departments to identify potential in-office kiosk relocations with planned completions by
April 2014.

Management also disagreed with recommendation 3. Management stated the reduction
in overtime usage is attributable to staffing vacancies and not to the movement of
customers at an SSK unit. Further, management disagreed with the annual amount
stated in the report of $24 million. Also, management stated it disagreed with the
accuracy and assumptions of the monetary impact methodology. The assumptions, and
the documentation provided by OIG failed to substantiate the correlation between an
increase in the CAP and the annualized savings.


                                            6
Self-Service Kiosks                                                           DR-AR-14-002



Management also disagreed with recommendation 4 to evaluate industry best practices
using self-service kiosks and identify barriers impacting implementation. Management
stated it evaluated industry best practices and will continue to evaluate and incorporate
industry best practices into standard operating procedures as appropriate. Management
stated they implemented a number of the best practices identified in the report and
completed them in November 2013. See Appendix E for management’s comments, in
their entirety.

Evaluation of Management’s Comments

Although management’s comments were non-responsive to the recommendations, they
provided corrective actions which were either implemented or planned that should
resolve the issues identified in the report.

Regarding recommendations 1 and 4, management implemented corrective actions
during the audit. These recommendations can be closed with the issuance of this report.

Regarding recommendation 2, management stated it deployed standardized signage
and it is working on relocation of kiosks as necessary with a completion date of April
2014.

Regarding recommendation 3, management disagreed with the elimination of 249,877
workhours and the associated $24 million in monetary impact. Even though
management disagreed with the workhour reductions, they could scale back overtime to
achieve the recommended reduction, without impacting staff. We plan on conducting a
follow-up audit in lieu of pursuing this issue through the resolution process.

In developing the monetary impact, we did not identify the actual reduction of overtime
hours, but developed potential workhour savings, based on available overtime at more
than 1,700 SSK sites. The Voluntary Early Retirement Authorization (VERA) mentioned
by management was not relevant to our calculation of monetary impact. We used
overtime rates to be conservative instead of regular workhour rates, which would have
resulted in a higher monetary impact. Further, vacancies caused by excessing or the
VERA are actions that management plans for well in advance.

The assumptions in the methodology used by the OIG were similar to those used by the
Postal Service for the justification of full-time LAs at 132 SSK sites. These SSK
Expansion Phase 1 sites were part of a business case developed by the Postal Service
to justify using LAs. Increasing the CAP was the key justification for the workhours used
to employ LAs. The OIG used this same factor in its SSK cost savings model that
identified the monetary impact related to the increased use of LAs and reduction of
workhours at retail customer service sites with SSKs. We revised the report to show the
savings were $24 million over 2 years.




                                            7
Self-Service Kiosks                                                    DR-AR-14-002




Regarding management’s comments about the loss for destroyed or unused labels, we
acknowledged in the report that management's corrective action began in February
2013 and we made no recommendation on this issue.




                                        8
Self-Service Kiosks                                                           DR-AR-14-002



                         Appendix A: Additional Information

Background

SSKs are in about 2,300 Postal Service lobbies nationwide, with the majority of them
accessible 24 hours a day, 7 days a week. SSKs are designed to process 80 percent of
those transactions normally handled by a window employee at a retail Postal Service
facility. SSKs handle non-cash transactions and accept major credit and debit cards.
They dispense postage for First-Class Mail, Priority Mail, Parcel Post, and Express Mail
and can also weigh mail. The Postal Service uses a CAP to measure SSK performance,
specifically, measuring the percentage of walk-in capable retail transactions performed
by the SSK instead of a retail window clerk. Increasing this percentage allows the Postal
Service to reduce window clerk workhours.

Objective, Scope, and Methodology

Our objective was to assess the SSK initiative in customer service operations. To
accomplish this objective we:

   Determined whether SSKs met the FY 2013 customer adoption goal of 35 percent.

   Interviewed Postal Service officials to gather information about SSK strategy,
    deployment, operations, policies, procedures, and other guidance.

   Reviewed and analyzed policies including:

    o Handbook PO-106, Automated Postal Center, dated November 2007.

    o Delivering Results Innovation Value Efficiency.

    o Automated Postal Center Postmaster's Communications Kit (March 2004, Postal
      Service Communication Group).

    o Handbook M-32, Management Operating Data System, dated March 2009.

    o Self-Service Expansion Phase 1 DAR, dated May 2012.

    o Handbook PO-209, Retail Operations, dated October 2012.

    o Handbook F-101, Field Accounting Procedures (Section 5-5, Automated Postal
      Center Kiosks), dated April 2013.




                                            9
Self-Service Kiosks                                                                                     DR-AR-14-002



    Judgmentally selected districts with high and low performance achievement 11 in
     FY 2012 to document best practices and challenges.

    Conducted onsite observations of selected SSKs to review operations and meet with
     managers regarding their use.

    Interviewed retail industry leaders (Giant Food, Wal-Mart, and Consumer Value
     Stores) and reviewed the 9th Annual Kiosk Benchmark Study (Gartner).

    Developed a monetary impact by identifying SSK-capable transactions and
     associated workhours to identify potential workhour cost savings based on increased
     SSK use.

We conducted this performance audit from January 2013 through January 2014 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on October 29, 2013, and included
their comments where appropriate.

We assessed the reliability of data from the EDW, 12 eFlash, 13 EDW/RDM, and the
Customer Experience Measurement by checking the reasonableness of results. We did
not audit these systems, but performed limited data integrity tests to support our data
reliance. We determined that the data were sufficiently reliable for the purposes of this
report.

Prior Audit Coverage

Prior audit coverage includes an OIG report titled Financial Controls Over Automated
Postal Centers (Report Number FI-MA-12-007, dated May 17, 2012). The audit stated
that controls over APC stock examinations were effective; however, opportunities exist
for the Postal Service to reduce fraudulent credit and debit card purchases.
Management implemented many security measures to significantly reduce the number
and amount of credit card chargebacks (reversals of previously settled transactions). It
could further reduce chargebacks and the cost of investigating suspicious credit card
activity by implementing an Address Verification System, which could limit fraudulent
purchases that occur by using

11
   Performance achievement scores were acquired from the Customer Service Variance Program, which Postal
Service customer service operations uses to determine whether sites are meeting established targets. The
performance achievement metric is based on earned hours compared to actual hours used by the site.
12
   The EDW is a single repository for managing all of the Postal Service's data assets and it provides data to a wide
variety of users.
13
   eFlash provides weekly workhours and volume. It combines data from delivery, mail processing, employee
relations, labor relations, and finance.

                                                          10
Self-Service Kiosks                                                         DR-AR-14-002




Management agreed with the finding and the recommendation and will review the level
of chargebacks at the end of FY 2013, and determine by March 2014 whether a full
cost-benefit analysis is required. The delay until March 2014 will enable management to
better identify costs associated with the new software that will allow print-on-demand
stamps at APC kiosks. The analysis will include costs associated with the software that
provides print-on-demand stamps at APC kiosks.




                                          11
Self-Service Kiosks                                                                                  DR-AR-14-002



                                    Appendix B: Monetary Impacts

          Recommendations       Impact Category                                           Amount
                 3        Funds Put To Better Use 14                                      $24,178,093
                 3        Funds Put to Better Use                                             682,242
               Total                                                                      $24,860,335

Workhour Savings. We identified Labor Distribution Code (LDC) 45 workhour savings
based on an increased CAP. Increases in the CAP allow the Postal Service to reduce
the workload at the retail counter, which would lower workhour costs.
We calculated workhour savings based on SSKs increasing their CAP from 28 to
35 percent. 15 The 8 percentage point SSK CAP increase would yield an annual savings
of $12,089,046. 16 We used similar assumptions to identify LDC 45 workhour savings as
used in the SSK Expansion Phase 1 DAR Business Case.
We calculated savings as follows:

    Obtained FY 2012 end-of-year data for SSK sites. 17 About 1,762 SSK sites were
     included in the data used to identify the monetary impact.

    Obtained FY 2012 overtime workhours from eFlash for SSK sites. 18

    Used 28 percent (end-of-year FY 2012) CAP base assumption, and 35 percent CAP
     established by management for "Legacy" SSKs to identify workhour savings.

    Matched eFlash overtime and SSK data.

    Identified full-time equivalent (FTE) savings.

    Identified less than FTE savings.

    Determined minimum savings per site in the monetary impact.

    Determined the total potential monetary impact of $12 million.

SSK Labels Costs. One box of labels costs           . In        , about       boxes
were used for SSKs at a total cost of            . Based on our observations of SSKs at
the sites visited and interviews with managers or supervisors,
costs for labels were identified by multiplying           by         for the cost of
labels not used. The estimated annual cost totaled $341,121.

14
   Funds that could be used more efficiently by implementing recommended actions.
15
   We used the 35 percent CAP based on the 2013 SSK target established for "Legacy" systems. Using an LA would
increase the CAP to 35 percent from a base CAP of 28 percent.
16
   The annualized monetary impact was projected for one additional "out year" (FY 2013) resulting in a 2-year impact
of $24,860,335.
17
   We did not include the 2013 SSK deployment sites in our methodology.
18
   The Postal Service initiated a voluntary early retirement from August through December 2012.

                                                         12
Self-Service Kiosks                                                                                 DR-AR-14-002



        Appendix C: Self-Service Kiosk Customer Adoption Percentage Rates

                          Table 1. Comparison of CAP Performance for
                                    2004 SSK-Deployed Sites

The audit team visited the following 15 field sites with SSKs to observe operations. CAP
rates are provided to illustrate performance. The performance for these sites is in the
analysis of the 1,762 sites used to identify the monetary impact for this audit.

                                                                                        Same
                                                                                       Period
                                                                                        Last
                                                   SSK                FY 2013,          Year
              Site Name                          Location               Q3             (SPLY)       Difference
 Sutter Station*                                         24/7              53.09%       40.50%                  12.60
 Oceanside Post Office                             Lobby 24/7              31.79%       28.71%                   3.08
 Trinity River Station                                   24/7              34.01%       31.68%                   2.32
 Kingstowne Branch                                       24/7              33.41%       31.25%                   2.16
 Dallas Main Post Office                                 24/7              17.28%       15.32%                   1.97
 La Costa Station                                  Lobby 24/7              40.81%       39.70%                   1.11
 Rincon Finance Station                            Lobby 24/7              23.10%       23.16%                  -0.06
 Flower Mound Station                              Lobby 24/7              42.88%       43.80%                  -0.92
 Tate Springs Main Post Office                           24/7              29.69%       30.68%                  -0.99
 Oak Lawn Station                                  Lobby 24/7              29.12%       33.06%                  -3.95
 Eighth Avenue Station                             Lobby 24/7              26.04%       30.65%                  -4.60
 Burbank Downtown Post Office                      Lobby 24/7              29.96%       41.90%                 -11.94
*Note: Sutter Station management attributes its increase in the CAP to the presence of an acting LA spending
between 3 and 6 hours daily directing and helping customers use the SSK.

                          Table 2. Comparison of CAP Performance for
                                    2013 SSK-Deployed Sites

                                                  SSK                FY 2013,
              Site Name                         Location                Q3              SPLY        Difference
 Bethesda Post Office                             Lobby 24/7               45.49%       23.06%                 22.43
 Burbank Main Post Office                         Lobby 24/7               56.55%       38.84%                 17.71
 Woodbridge Post Office                           Lobby 24/7               53.15%       45.51%                  7.64
Source for Tables 1 and 2: The Postal Service provided management reports based on data from EDW/RDM.
Key for Tables 1 and 2: 24/7 means SSK not in lobby, open 24/7; Lobby 24/7 means SSK in lobby, open 24/7.




                                                        13
Self-Service Kiosks                                                                                         DR-AR-14-002



                   Appendix D: Sites Visited and Lobby Assistant Information

The SSK audit team visited the following 15 field sites to observe operations and
activities related to retail operations and SSK use. The team interviewed managers and
asked about their use of LAs. Managers indicated they used various employees to greet
and assist customers, including LAs, supervisors, and the managers themselves.

                     Table 3. Sites Visited and Lobby Assistant Information 19

                                                      Types of LAs
                    Site Name                           Manager             Supervisor             Clerk         None
 Bethesda Post Office                                         x                     -                 -             -
 Burbank Downtown Post Office**                               -                     -                 -             x
 Burbank Main Post Office                                     -                     -                 x             -
 Dallas Main Post Office                                      x                     -                 -             -
 Eighth Avenue Station                                        -                     -                 -             x
 Flower Mound Station                                         -                     -                 -             x
 Kingstowne Branch                                            -                     -                 -             x
 La Costa Station                                             -                     x                 -             -
 Oak Lawn Station                                             -                     -                 -             x
 Oceanside Post Office                                        -                     -                 x             -
 Rincon Finance Station                                       -                     x                 -             -
 Sutter Station                                               x                     -                 -
 Tate Springs Main Post Office                                x                     -                 -             -
 Trinity River Station                                        -                     -                 -             x
 Woodbridge Post Office**                                     -                     -                 x             -
                  Total                                       3                     2                 3             7
Note: Sites with ** are 2014 deployment sites. While these sites were visited to observe "best practices," they were
not included in the monetary impact calculations.
Source: OIG site observations and on-site interviews with postmasters, managers, and supervisors.




19
     "X” in a column designates that an LA was used at that site. The table also identifies the type of LA used at the site.

                                                              14
Self-Service Kiosks                                       DR-AR-14-002



                      Appendix E: Management's Comments




                                     15
Self-Service Kiosks        DR-AR-14-002




                      16
Self-Service Kiosks        DR-AR-14-002




                      17
